Docket number
Supreme Court of the United States
Trent Slone,
Petitioner,
vs
United States of America,
Respondent.
On Petition for Writ of Certiorari to the United States Court of
Appeals
for the Seventh Circuit
Petition for Certiorari

William J. Stevens
Counsel of Record for
Petitioner Trent Slone
Post Office Box 747
Bridgman, Michigan 49106
Telephone (269)469-1469

1

Question Presented
1. Does the presumption of innocence and the due process clause of
the Fifth Amendment protect a defendant at a firearms violation
sentencing when the government claims that the defendant
possessed the firearm in connection with another offense—
possessing drugs even though the defendant was acquitted of the
drug possession charge?

2

2. Parties
1.Petitioner, Trent Slone.
2. Respondent, United States of America.

3

3. Table of Contents
Questions presented

page 2

Parties

page 3

Table of Contents

page 4

Table of Authorities

page 5

Citation to opinions below

page 6

Jurisdiction

page 6

5th and 6th Amendment

page 7

Statement of the case

page 8

Reasons for granting the writ
page 11
The presumption of innocence and the Fifth Amendment to the
Constitution protects a defendant at sentencing from having the
Court enhance defendant’s sentence because of another felony
offense when the defendant has been acquitted of that other
offense.
Conclusion

page 14

Appendix

following page 14

Seventh Circuit Opinion United States v Slone ____ F.3d_____ ; 202721 (7th Cir. 2021)

4

Table of Authorities
Cases

Page

Cases

Coffin v United States 156 US 432, 15 S.Ct. 394, 39 Led 480
(March 4,1895)

12,13

Estelle v Williams 425 US 501, 96 S.Ct 1691, 48 Led2d 126 (1976)

12

Jones v United States 574 US __(2014 case #13-10026)

14

Nelson v Colorado 581 US ___; 137 S.Ct. 1249 ; 15-1256 (2017)

13

Taylor v Kentucky 436 US 478, 98 S.Ct. 1930, 56 Led2d 468

12

(1978).United States v. Holton, 873 F.3d 589, 591 (7th Cir. 2017)

11

United States v Trent Slone ___ F 3d ____ (20-2721)
United States v. Watts, 519 U.S. 148, 154 (1997)

11,14
11,13

Statutes
18 USC § 922(g)

8,11

21 USC § 841(a)(1)

8,11

Sentencing Guidelines
Sentencing Guideline § 2K2.1(b)(6)(B)

11

Other Authorities

Erica K Beutler A Look at the Use of Acquitted Conduct inSentencing 88
Journal of Criminal Law Criminology 809 Spring 1998

14

Mueiler, Christopher B.; Laird Kirkpatick (2009) Evidence 4th ed.
Aspen (Wolters, Kluwere) ISBN 978-0-7355-7968-2 pp 135-34.

12

Universal Declaration of Human Rights article 11

12

5

Citations Below
The opinion of the United States Court of Appeals for the Seventh
Circuit was decided March 10, 2021 in case No. 20–2721 and has not
yet been reported in the Federal 3rd Reporter. A copy is reproduced in
the Appendix.

Jurisdiction
The judgment and opinion of the Court of Appeals sought to be
reviewed was entered March 10, 2021. No extension of time to file
this petition for writ of certiorari was sought. Petitioner seeks to
invoke this Court's certiorari jurisdiction under 28 USC § 1254 by
filing this petition by first class mail within 90 days of March 10, 2021
and on or before Tuesday June 8, 2021.

6

Constitutional Provision Involved
Fifth Amendment
Amendment V
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in the
Militia, when in actual service in time of War or public danger; nor
shall any person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be
taken for public use, without just compensation.

Sixth Amendment
Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance of counsel for his
defense.

7

Statement of the Case
Trent Slone was charged with Possession with intent to
distribute methamphetamine 21USC§841(a)(1) Count 1 and felon in
possession of firearms 18 USC§922(g)(1) Count 2 (doc 11). At trial he
was found not guilty of the drug charge and guilty of the firearms
charge.
On December 5, 2019 Bureau of Alcohol Tobaco Firearms and
Explosives agents broke down the door and searched (tr pg 100, 145
3//9/20) Sam Dillon’s house at 1836 Johnson Street South Bend
Indiana (tr pg 94 3/9/20). Trent Slone was not in Sam’s house. (tr pg
101 line 1 3/9/20) Trent had lived in Sam’s house for the three or
possibly four years before October 27, 2019 (tr pg 29 3/10/20) Trent
occupied a bedroom on the first floor right behind the kitchen, (tr pg
30 3/10/20) but everyone hung out in the basement. (tr pg 30 3/10/20)
On October 27, 2019 Sam got enraged at Trent (tr pg 29 3/10/20).
Trent was back with his girlfriend and Sam was trying to make a
move on her. (tr pg 29 3/10/20) Sam told Trent to leave after Trent
had sex with a girlfriend in one of the bed rooms off of the kitchen (tr
pg 110 3/9/20). Shortly after Trent left Sam’s house Trent’s friends
helped him move six truckloads of belongings out of Sam’s house
and into Victoria Brow’s garage (tr pg 29-30 3/10/20) When Trent and
his friends went to Sam’s to get the rest of Trent’s stuff the locks had
8

already been changed and Trent had to wait for Sam to get home
from work to let them in. (tr pg 40 3/10/20). Before Thanksgiving 2019
Trent moved out of Sam’s premises. (tr pg 112-113 3/9/20).
On December 5, 2019 ATF agent TJ Worthen was part of the entry
team searching1836 Johnson Street (tr pg 143-145 3/9/20) In the
sleeping area of the basement a gun case caught agent Worthen’s
attention. (tr pg 147-148 3/9/20) The case contained a Jericho 941
handgun (tr pg 148 3/9/20) . ATF Task Force Officer Caleb Anderson
located a purple rifle case on top of a clothing shelf or dresser (tr pg
150 3/9/20) The rifle case contained a Winchester model 94AE 30-30
caliber rifle (tr pg 151 3/9/20).
A black bag, referred to by agent Worthen as a shaving kit, was
found on the basement floor by Task Force Officer Bayne Bennett (tr
pg 154 3/9/20) The black bag contained plastic baggies which
contained a total weight of 80 grams of methamphetamine (tr pg 189
3/9/20).
On December 20, 2019 agents searched Linda Hastings’ red Chevy
van and found a model M877 .367-Magnum Rossi revolver. Trent
Slone was interviewed by ATF agent Lerch about the Rossi and other
topics. In the interview agent Lerch said to Slone, “I know you
touched it.” and Slone responded, “Sure, absolutely. Somebody left it
in the van and I put it away.” He also said, “Well, he left it in the
9

Tahoe originally, so I just set it in the bag in the van.” (tr pg 45
3/10/20)
The jury found defendant not guilty of count 1 (possession of
controlled substance with intent to deliver) and guilty of felon in
possession of firearms (doc 35).
In connection with sentencing the government sought to punish the
defendant for the commission of a crime when he had not been
convicted of it by seeking to increase the offense level by 4 levels
pursuant to guideline 2K2.1(b)(6)(B). Defendant objected (doc 50).
The government offered evidence that Cassandra Gienger took
packages from South Bend to Fort Wayne for Trent Slone (tr pg 127132 3/9/20) No guns were involved with those package deliveries in
any way. Slone acknowledged that he served as a middle man
between buyers and sellers of drugs. (tr pg 193 3/9/20). There was no
showing that guns played any role in those introductions of buyers
to sellers. At sentencing the district court overruled the objection to
the four level enhancement (tr pg9-12 9/9/20 ) and imposed a
sentence of 41 months imprisonment , 1 year supervised release ,
and a $100 special assessment (document 71). The Seventh Circuit
held: “Though he was acquitted of drug possession, sentencing
courts may consider acquitted conduct provided that its findings are
supported by a preponderance of the evidence. See United States v.
10

Watts, 519 U.S. 148, 154 (1997); United States v. Holton, 873 F.3d 589, 591
(7th Cir. 2017). There was more than enough evidence to meet that
threshold here. “ United States v Trent Slone ___ F 3d ____ (20-2721)
and affirmed.

Reasons for Granting the Writ

The presumption of innocence and the Fifth Amendment to the
Constitution protects a defendant at sentencing from having the
Court enhance defendant’s sentence because of another felony
offense when the defendant has been acquitted of that other
offense.

At trial the jury acquitted Trent Slone of Possession with intent
to distribute methamphetamine 21 USC § 841(a)(1). At sentencing for
possession of firearms (18 USC § 922(g) the government argued that
his offense level should be increased because the firearms “facilitated
another felony offense” Sentencing Guideline § 2K2.1(b)(6)(B).
Defendant asserted that the acquitted conduct should not be used to
enhance his sentence. The district court and the Seventh Circuit relied
on United States v Watts 519 US 148, 117 S. Ct 633 (1997) to hold that
acquittal was no barrier to finding that defendant engaged in
“another felony offense.”

11

The presumption of innocence was embedded in the common
law when the Republic was founded. Eighteenth Century barrister
William Garrow summarized the concept with the phrase that the
accused is “presumed innocent until proven guilty” Mueiler,
Christopher B.; Laird Kirkpatick (2009) Evidence 4th ed. Aspen
(Wolters, Kluwere) ISBN 978-0-7355-7968-2 pp 135-34. The
Universal Declaration of Human Rights article 11 states, “Every one
charged with a penal offense has the right to be presumed innocent
until proved guilty according to law in a public trial at ehich he has
had all guarantees necessary for his defense.” The Due Process
requirement that the presumption of innocence be included in jury
instructions in a criminal trial was recognized in Coffin v United
States 156 US 432, 15 S.Ct. 394, 39 Led 480 (March 4,1895) The failure
to expressly include the presumption of innocence jury instruction
violated due process and required reversal in Taylor v Kentucky 436
US 478, 98 S.Ct. 1930, 56 Led2d 468 (1978). In Estelle v Williams 425 US
501, 96 S.Ct 1691, 48 Led2d 126 (1976) the court observed “The
presumption of innocence, although not articulated in the
Constitution, is a basic component of a fair trial under our system of
criminal justice. Long ago, this Court stated:’The principle that there
is a presumption of innocence in favor of the accused is the
undoubted law, axiomatic and elementary, and its enforcement lies
12

at the foundation of the administration of our criminal law.’ Coffin v
United States 156 US 432, 15 S.Ct. 394, 39 Led 480 (March 4,1895) “

When Slone was acquitted of the drug charge, due process and
axiomatic presumption of innocence applied to him. In the case
Nelson v Colorado 581 US ___; 137 S.Ct. 1249 ; 15-1256 (2017) the court
held that the presumption of innocence and due process require the
refund of monetary penalties to a defendant once a criminal
conviction under which the money was collected is set aside. Citing
Johnson v Mississippi 486 US 578, 585 (1988). The presumption of
innocence is fundamental .
In United States v Watts 519 US 148, 117 S.Ct. 633; 95-1906 (1997)
the court held, “We therefore hold that a jury's verdict of acquittal
does not prevent the sentencing court from considering conduct
underlying the acquitted charge, so long as that conduct has been
proved by a preponderance of the evidence. “ The holding in Watts
bypasses the presumption of innocence which attaches when a jury
acquits.
Regardless of how the proof of other crimes at sentencing are
established, the failure to honor the presumption of innocence
violated due process. A variety of procedures have been suggested

13

for dealing with acquitted conduct: e.g Jones v United States 574 US
__(2014 case #13-10026) ; Erica K Beutler A Look at the Use of Acquitted
Conduct inSentencing 88 Journal of Criminal Law Criminology 809
Spring 1998. Certiorari should be granted to re-examine Watts and
that case’s failure to honor the due process presumption of
innocence.

Conclusion
For the foregoing reasons This court should grant certiorari.

William J. Stevens
Counsel of Record for
Petitioner, Trent Slone
P.O. Box 747
Bridgman MI 49106
(269) 469-1469

Respectfully Submitted,
/s/William J. Stevens

Appendix
Court of Appeals Opinion

14

